LAW OFFICES
Burch, Porter & Johnson, PLLC

130 North Court Avenue
Memphis, TN 38103

 

Molly A. Glover Phone: 901.524.5000
901.524.5137 Fax: 901.524.5024
mglover@bpjlaw.com bpjlaw.com

September 3, 2019

The Honorable Scott S. Harris
Clerk of the Court

Supreme Court of the United States
One First Street, N.E.

Washington, D.C. 20543

Re: Jackson National Life Insurance Company v. Tamarin Lindenberg: No. 19-4;
Tennessee v. Tamarin Lindenberg: No. 19-13
Unopposed Request for Extension of Time from September 13, 2019, to
November 1, 2019 for Tamarin Lindenberg to file a response to Jackson
National Life Insurance Company's petition for writ of certiorari.

Dear Mr. Harris:

I, on behalf of Burch Porter & Johnson, PLLC, represent Respondent Tamarin Lindenberg in
the above referenced matter. On August 14, 2019, the Court requested a response to the
petition for certiorari filed by Jackson National Life Insurance Company in case no. 19-4.
Also on August 14, 2019, the court requested a response from Ms. Lindenberg in case no.
19-13 (State of Tennessee v. Lindenberg). Responses to both petitions are currently due
on September 13, 2019.

On behalf of the Respondent Tamarin Lindenberg, we respectfully request an extension of
time to November 1, 2019 to respond to the Petition filed by Jackson National Life
Insurance Company and to the Petition filed by the State of Tennessee. The Petitioners in
case nos. 19-4 and 19-13 do not oppose the requested extension.

Thank you.

Respectfully submitted,

Molly Glo’
The Honorable Scott S. Harris
Page 2 of 2

cc: Daniel Ortiz, Counsel for Petitioner, JNL
Jonathan David Shaub, Counsel for Petitioner, State of Tennessee

Burch, Porter & Johason, PLLC
